Audit
Report
     IMPLEMENTATION OF DOD INFORMATION SECURITY
        POLICY FOR PROCESSING ACCOMPLISHED AT
        DEFENSE ENTERPRISE COMPUTING CENTERS



Report No. D-2001-183                  September 19, 2001



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
AIS                   Automated Information System
ASD(C3I)              Assistant Secretary of Defense (Command, Control,
                         Communications, and Intelligence)
C and A               Certification and Accreditation
CIO                   Chief Information Officer
DAA                   Designated Approval Authority
DISA                  Defense Information Systems Agency
DITSCAP               DoD Information Technology Security Certification and
                         Accreditation Process
GAO                   General Accounting Office
GISRA                 Government Information Security Reform Act
IATO                  Interim Authority to Operate
IT                    Information Technology
ISSO                  Information Systems Security Officer
OMB                   Office of Management and Budget
                      Office of the Inspector General, DoD
Report No. D-2001-183                                              September 19, 2001
  (Project No. D2001AD-0071)

         Implementation of DoD Information Security Policy for
            Processing Accomplished at Defense Enterprise
                          Computing Centers

                               Executive Summary

Introduction. Public Law 106-398, “Government Information Security Reform,”
title X, subtitle G, FY 2001 Floyd D. Spence National Defense Authorization Act,
requires that each agency obtain an independent assessment of its security posture. The
Inspector General of each agency is to evaluate the agency’s security posture based on a
review of an independently selected subset of systems.

The DoD uses information technology for thousands of processes that are integral to
support and operational functions. Mission-critical, mission-essential, and support-
function processes, or applications, reside on computer systems in Defense Enterprise
Computing Centers and Detachments, which are part of the Defense Information
Systems Agency. Customer applications from all DoD Components include financial
accounting; personnel; pay and disbursement; materiel shipping, receiving, and storing;
munitions maintenance; and weapon-systems-associated applications.

The Office of the Inspector General, DoD, identified its independent subset of systems
as the 1,365 unique-name applications resident on the Defense Enterprise Computing
Centers and Detachments as of February 2001. From that population, the Office of the
Inspector General selected a random sample of 90 applications. The Army Audit
Agency evaluated 34 applications, the Air Force Audit Agency evaluated 19, and the
Office of the Inspector General evaluated 37, which served the Navy, the Defense
Logistics Agency, and the Defense Accounting and Finance Service. The evaluations
did not include the security measures exercised for the Defense Enterprise Computing
Centers’ and Detachments’ computer hardware, executive software, or other support
components.

Objectives. The overall audit objective was to respond to the requirements of the
Government Information Security Reform Act, title X, subtitle G of the FY 2001
Floyd D. Spence National Defense Authorization Act (Public Law 106-398).
Specifically, we selected a subset of DoD information technology to determine whether
managers for that information technology had implemented DoD information security
policy.

Results. DoD managers had not fully implemented DoD information security policy.
Written, current certifications and accreditations were not available for applications
estimated at more than 60 percent of the population. Certification and accreditation are
the technical evaluation of security features of an application or system and the formal
declaration to operate the application or system. The status of systems for certification
and accreditation was estimated for the population of 1,365 applications from the
Defense Enterprise Computing Centers and Detachments as follows:

                                                                             Projected     Percent
                                                                              Results    of Population

Current Certification and Accreditation or
   Interim Authority to Operate                                               501             36.7
Indeterminate: retired, transferred, insufficient detail
   available to find authority to operate status                              410             30.0
Other technology with no Certification and Accreditation
   or Interim Authority to Operate                                            137             10.0
Expired Certification and Accreditation or
   Interim Authority to Operate                                                30              2.2
No Certification and Accreditation or Interim Authority
   to Operate or Certification only                                           288             21.1
      Total                                                                  1,3661           100.0

As a result of incomplete policy implementation, DoD managers assumed risks that
were not fully identified, assessed, accepted, and managed as a result of a deliberative
process. Unmanaged information security risk may lead to loss of service, data
corruption, unauthorized access, sabotage, tampering, misuse, and fraud in DoD
information technology resources. For details of the audit results, see the Finding
section of the report.

Summary of Recommendations. We recommend that the Assistant Secretary of
Defense (Command, Control, Communications, and Intelligence) define information
systems terminology to clearly and comprehensively assign responsibility, and use
measurement tools developed in response to Public Law 106-398 to evaluate guidance
and rectify omitted, obsolete, and confusing policy. We recommend that the Chief
Information Officers of the Army, the Navy, the Air Force, the Defense Finance and
Accounting Service, and the Defense Logistics Agency use information gathered in
response to the Public Law to allocate resources and improve programs. We also
recommend that the Chief Information Officers coordinate security efforts with the
Defense Information Systems Agency, identify security officials, and oversee internal
procedures to provide information security for processing accomplished jointly. We
further recommend that the Director, Defense Information Systems Agency, establish a
monitoring process and a performance goal for tracking customer certifications and
accreditations and identifying information security personnel for all customers by the
FY 2002 Government Information Security Reform reporting period.

1
    The projected results do not add up to the population due to rounding.
                                                      ii
Management Comments. The Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence) stated that the out-of-date security policies that we
cited in our report were being updated and will be reissued in October 2001 and early
2002. In addition, the Assistant Secretary stated that the report oversimplified in
attributing DoD information security deficiencies to a lack of definition for systems and
applications and unclear guidance. The Army, the Air Force, and the Defense
Logistics Agency concurred with the recommendations to use information gathered in
response to the public law to allocate resources and improve programs and to
coordinate information security efforts for applications and other informational
technology with service providers. The Defense Information Systems Agency
concurred with coordinating information security efforts with customers to obtain their
statements of approval to operate when beginning service arrangements and with
maintaining a resource listing of officials responsible for information security for each
customer of the Defense Enterprise Computing Centers and the Detachments. The
Defense Information Systems Agency nonconcurred with establishing a monitoring
process and performance goal for the Defense Enterprise Computing Centers’
information security documentation and personnel. Although the Defense Finance and
Accounting Service concurred with the recommendations, we received management’s
comments too late to be included in this final report. We will consider those comments
as management’s response to the final report unless management submits additional
comments. The Navy did not provide management comments. A discussion of the
management comments is in the Finding section of the report and the complete text is in
the Management Comments section.

Audit Response. Current and clear guidance from the Assistant Secretary of Defense
(Command, Control, Communications, and Intelligence), although not a guarantee of
adherence, is a prerequisite for effective implementation and oversight of information
security. Also, the Assistant Secretary did not specifically comment on the
recommendations on defining information systems technology to clearly assign
responsibility and on using measurement tools developed in response to Public
Law 106-398 to evaluate guidance and rectify omitted, obsolete, and confusing policy.
The Defense Information Systems Agency should establish a monitoring process
because information security is a shared responsibility in which the Defense
Information Security Agency has a critical role for its customers. Without current
information about its customers and their security status, the Defense Information
Security Agency could put all customers at increased risk. The comments from the
Army, the Air Force, the Defense Logistics Agency, and the Defense Finance and
Accounting Service were adequate and additional comments are not required. We
request that the Assistant Secretary of Defense (Command, Control, Communications
and Intelligence), the Chief Information Officer of the Navy, and the Defense
Information Systems Agency provide comments on their respective recommendations
by October 19, 2001.




                                           iii
Table of Contents

Executive Summary                                                         i

Introduction
     Background                                                           1
     Objectives                                                           2

Finding
     Implementation of DoD Information Security Policy                    3

Appendixes
     A. Audit Process
          Scope                                                          15
          Methodology                                                    16
     B. Prior Coverage                                                   19
     C. Sample Application Results                                       20
     D. Report Distribution                                              27


Management Comments
     Assistant Secretary of Defense (Command, Control, Communications,   29
       and Intelligence)
     Army                                                                31
     Air Force                                                           33
     Defense Information Systems Agency                                  35
     Defense Logistics Agency                                            39
Background
    General Provisions of Government Information Security Reform. On
    October 30, 2000, the President signed the FY 2001 Defense Authorization Act,
    (Public Law 106-398) that included title X, subtitle G, “Government
    Information Security Reform Act,” (GISRA). Subtitle G provides for ensuring
    effective controls for highly networked Federal information resources,
    management and oversight of information security risks, a reporting mechanism
    for improved information system security oversight, and assurance for Federal
    information security programs. The GISRA directs each Federal agency (the
    DoD for purposes of this report) to evaluate its information security program
    and practices annually and, as part of the budget process, submit the results to
    the Office of Management and Budget (OMB). The GISRA covers unclassified
    and national security systems and creates the same management framework for
    each.

    DoD and Inspector General Provisions of GISRA. The GISRA establishes
    parallel requirements for the agency and the agency Inspector General. It
    requires DoD to annually evaluate its information security program and
    practices and confirm their effectiveness by testing a subset of systems. GISRA
    requires the Office of the Inspector General to also evaluate the DoD
    information security program and practices and to independently select and test
    a subset of systems to confirm information security program effectiveness.

    The DoD Information Technology Universe. The DoD has thousands of
    information technology (IT) processes that comprise its IT universe. Those
    processes can be categorized according to a variety of criteria; for example,
    function, criticality, and owner or operator. Two categories, or populations,
    identified in DoD for the FY 2001 GISRA report were the IT Registry systems
    and the processes supported by the Defense Enterprise Computing Centers (the
    Centers), for which DISA billed its customers. Those processes or applications
    that are Center supported may also be on the IT Registry database, though not
    all are.

              IT Registry Database of Systems. The IT Registry database is
    required by title VIII, subtitle B, “Information Technology,” section 811,
    “Acquisition and Management of Information Technology,” Public
    Law 106-398. All mission-critical and mission-essential IT systems must be
    registered with the DoD Chief Information Officer (CIO) before they can be
    funded. The IT Registry database requires 17 data fields, including system
    name, description, functional area, and program manager information. As of
    April 2001, 3,739 IT systems were registered in the IT Registry database.

             Center-Supported Applications. The Centers and Detachments of the
    Defense Information Systems Agency (DISA) provide general support systems,
    including mainframe computers, minicomputers, and local area networks for its
    customers’ applications. Each Center operates under the control of the Center
    commanding officer, with system security functions accomplished by the
    designated security manager and the information systems security manager. The
    DISA has five Centers that are located in Mechanicsburg, Pennsylvania;
                                       1
     Columbus, Ohio; St. Louis, Missouri; Oklahoma City, Oklahoma; and Ogden,
     Utah. In addition, there are Detachments or satellite sites at 14 other locations.
     The Center customers are the Military Departments and other Defense agencies
     with installations throughout the United States. The customer applications that
     the Centers and Detachments run to support DoD installations include financial
     accounting; personnel; pay and disbursement; materiel shipping, receiving, and
     storing; munitions maintenance; and weapon-systems-associated applications.
     DISA bills the customers for running 4,939 applications.

     The Subset Selected by the Office of the Inspector General. The Office of
     the Inspector General, DoD, identified its independent subset of systems as the
     applications supported by the Centers and Detachments of DISA. Analysis of
     the 4,939 applications identified 1,365 items based on unique names that became
     the source of the subset sample. The random sample included applications
     supporting multiple DoD Components, installations, and functions. The Army
     Audit Agency evaluated 34 applications and the Air Force Audit Agency
     evaluated 19 applications supporting their respective Components. The Office
     of the Inspector General, DoD, evaluated the balance of 37 applications, which
     supported the Navy, the Defense Finance and Accounting Service, and the
     Defense Logistics Agency. The evaluation did not include the Centers’ and
     Detachments’ security measures exercised for the computer hardware, executive
     software, or other components of Center support.

     The DoD Information Security Program. The primary document establishing
     the DoD information security program is DoD Directive 5200.28, “Security
     Requirements for Automated Information Systems,” March 21, 1988,
     which provides the mandatory, minimum security requirements for automated
     information systems (AISs) based on acceptable levels of risk.
     Directive 5200.28 has several companion regulatory and procedural documents,
     including DoD Instruction 5200.40, “DoD Information Technology Security
     Certification and Accreditation Process,” (DITSCAP), December 30, 1997.

     The DITSCAP Program. DoD Instruction 5200.40 implements DoD
     Directive 5200.28; it prescribes procedures to accomplish policy goals and
     establishes standards for certifying and accrediting the security of DoD systems
     throughout their life cycle.

Objectives
     The overall audit objective was to respond to the Government Information
     Security Reform provisions in title X, subtitle G of the FY 2001 Floyd D.
     Spence National Defense Authorization Act (Public Law 106-398). Specifically,
     we selected a subset of IT in the DoD and determined whether the managers had
     implemented DoD information security policy. We did not evaluate the
     management control program separately because the DoD recognized
     information security and assurance programs as a material weakness in its most
     recent Statement of Assurance. In addition, the General Accounting Office
     (GAO) identified information security as a high risk. See Appendix A for a
     discussion of the audit scope and methodology. See Appendix B for prior
     coverage related to the audit objectives.
                                          2
                    Implementation of DoD Information
                    Security Policy
                    DoD managers had not fully implemented information security policy for
                    the DISA Center- and Detachment-supported applications, as shown by
                    the number of applications that had written, current certification and
                    accreditation (C and A) or interim authority to operate (IATO). Written,
                    current C and As were not available for an estimated 60 percent of
                    applications residing on Center and Detachment computer systems. The
                    projected point estimates to the population of 1,365 for authority to
                    operate for the sample of 90 applications were as follows:

                                                                        Projected           Percent
                                                                         Results          of Population
                        Current C and A or IATO                            501                 36.7

                        Indeterminate: retired, transferred,
                        insufficient detail available to find status        410               30.0

                        Other technology with no C and A
                        or IATO                                             137                10.0

                        Expired C and A or IATO                              30                2.2

                        No C and A or IATO, or certification
                        only                                                288                21.1

                            Total                                          1,3661              100.0

                    The DoD managers had not fully implemented information security
                    policy because definitions for system, application, and other means of
                    establishing security parameters and responsibilities were unclear. The
                    parameters of and responsibility for information security were further
                    obscured by the DoD practice of approving different organizations to
                    design, develop, manage, use, and operate IT applications. In addition,
                    the policy proponent, the Office of the Assistant Secretary of Defense
                    (Command, Control, Communications, and Intelligence) [ASD (C3I)];
                    the service provider, DISA; and the Component heads provided little
                    oversight of policy implementation or policy applicability to the current
                    IT environment. As a result of incomplete policy implementation, DoD
                    managers assumed risks to IT that were not fully identified, assessed,
                    accepted, and managed as a result of a deliberative process. Unmanaged
                    risk could lead to loss of service, data corruption, unauthorized access,
                    sabotage, tampering, misuse, and fraud in DoD IT systems and
                    applications.

1
    The projected point estimates do not add up to the population of 1,365 due to rounding.

                                                      3
Guidance on Information Security for AISs
          OMB Circular A-130. The purpose of OMB Circular A-130, Revised,
          “Management of Federal Information Resources,” February 8, 1996,2
          appendix III, “Security of Federal Automated Information Resources,” is to
          establish a minimum set of controls to be included in Federal automated
          information security programs. Circular A-130 requires agencies to establish
          controls that ensure adequate security for all information that is processed,
          transmitted, or stored in Federal automated information systems. The Circular
          also states that agencies should include controls that assign responsibility for
          security, security planning, periodic review of security controls, and
          management authorization.

          DoD Directive 5200.28 Requirements for Accreditation Process and Security
          Responsibility. DoD Directive 5200.28 applies to all AISs, including stand-
          alone systems, communications systems, and computer systems of all sizes.
          The Directive specifically states that an AIS accreditation should be
          accomplished and supported by a certification plan, a risk analysis of the AIS in
          its operational environment, an evaluation of the security safeguards, and a
          certification report. The Directive also states that a Designated Approval
          Authority (DAA) should approve the documents supporting each accreditation.
          The DAAs should reaccredit AISs at least every 3 years or before declaring a
          revised system operational.

          In addition to the DAA approval responsibility, Directive 5200.28 assigns
          responsibility to the DAA for acting on security deficiencies that would preclude
          the certification process. The DAAs must review the safeguards and issue
          certification statements for each AIS under their jurisdiction, based on the
          acceptability of the security safeguards for the AIS.

          Directive 5200.28 also establishes the responsibility of the Information System
          Security Officer (ISSO) to monitor the AISs for security compliance, report
          security incidents to the DAA, and maintain a plan for system security
          improvements and the progress towards meeting certification.

          DoD Instruction 5200.40, DITSCAP. The 1997 DITSCAP implements a
          standard approach for protecting and securing DoD information systems and
          provides procedures for accomplishing the certification and accreditation process
          established in DoD Directive 5200.28. The DITSCAP applies during all life-
          cycle phases to any DoD system that collects, stores, transmits, or processes
          unclassified or classified information. The DITSCAP procedures identify four
          life-cycle phases: definition, verification, validation, and post accreditation.
          The DoD Instruction discusses the DAA, ISSO, program manager, and
          certification authority as essential to the DITSCAP process.



2
    OMB issued a revised Circular A-130 November 30, 2000. The November 2000 revision did not
    change the requirements cited here.

                                                  4
Assigning Responsibility for Information Security
     From the sample of 90 applications, 33 applications met the minimum
     requirements for information security programs in assigning responsibility and
     accomplishing a current C and A or IATO. The results from the sample
     projected to 501 applications for the population that met minimum requirements.

     Responsibility for information security was not assigned for 39 sample
     applications in four of the five C and A categories: no C and A, 2 of 19
     applications; current C and A, 1 of 33 applications; other technology,
     9 applications; and indeterminate, 27 applications.

     Managers for two applications had not assigned DAAs or ISSOs for applications
     falling in the no C and A category. Managers for one application in the current
     C and A category had a DAA but no ISSO. Personnel contacted for nine
     applications that were categorized as other technology did not identify a DAA or
     an ISSO because the sample application did not meet the managers’ definition of
     a system or an application. The nine items included five data sets, one
     database, and three software management tools. (See Appendix C for details of
     sample items.)

     For 27 of the sample applications, personnel identified as DISA customer points
     of contact were unable to identify the application’s DAA and ISSO or provide
     information about the C and A. As of March 2001, DISA billed a customer for
     each of the 27 applications. The customer points of contact reported that
     6 applications were retired, 1 was transferred to a different service provider,
     2 were in development, and 3 were classified. The customer points of contact
     for 15 applications did not recognize the application for which DISA was billing
     them as one supporting their organization or functions.

     DISA could not provide further information regarding the applications, the
     DAA and ISSO for the applications, or the C and A status. DISA did not
     require customers to document completed DoD information security procedures
     before accepting the customers for Center and Detachment services. DISA
     resolutely delineated its security responsibilities for the hardware, executive
     software, and other supporting components from the security responsibilities for
     the customer applications.

     According to OMB Circular A-130, appendix III, agency IT security programs
     should assign responsibility for security. The Circular discusses the need to
     assign responsibility as both a general control and as a major application
     control. DoD Directive 5200.28 states that DoD Component Heads should
     appoint a DAA and assign the responsibility for overall AIS security. The DAA
     also has the responsibility to make sure that management names an ISSO for
     each AIS.

     The ISSO should implement security policy by monitoring each assigned AIS
     for appropriate operation, use, maintenance, and disposal. The ISSO verifies
     user qualifications for access and monitors audit trails periodically.

                                         5
    The applications that did not have a DAA or an ISSO appointed for security
    responsibility did not meet the minimum security program requirements
    established in OMB and DoD guidance. Approximately 40 percent,
    547 applications (410 projected indeterminate and 137 other technology), of the
    1,365 applications were estimated to have no appointed information security
    officers or approval authority. In our opinion, all the IT resident on the Centers
    and Detachments should have personnel assigned responsibility to ensure IT
    security, based on paragraph 2.3 in DoD Directive 5200.28, which states:
               This Directive applies to all AISs including stand-alone systems,
               communications systems, and computer network systems of all sizes,
               whether digital, analog, or hybrid; associated peripheral devices and
               software; process control computers; embedded computer systems;
               communications switching computers; personal computers; intelligent
               terminals; word processors; office automation systems; application
               and operating system software; firmware; and other AIS technologies,
               as may be developed.

    Although data sets, databases, and software tools are not specifically mentioned,
    they are also not specifically exempted. Because those non-application and non-
    system items were resident on a computer, they should have been subject to
    security evaluation or included as a component of another AIS C and A. In
    addition, owners and operators of applications and other IT should sufficiently
    identify applications and other IT to provide accountability throughout its life
    cycle, including transfer and retirement.

Authorizing AISs to Operate
    The sample of 90 applications had 21 applications without a current C and A.
    Managers for 7 applications had not obtained C and A or an IATO and
    managers for 12 applications had obtained certification of the applications but
    had not obtained an accreditation. Managers for two applications had allowed
    the C and A or IATO to expire (C and A more than 3 years old, IATO more
    than 1 year old).

    The guidance in OMB Circular A-130, appendix III, states that one of the
    minimum requirements for an information security program is an authorization
    process to implement the agency security plan. The Circular asserts that
    authorization should occur at least every 3 years.

    The DoD Directive 5200.28 requires official management authorization that it
    calls accreditation. The definition of accreditation states that authorization to
    operate should be based on a certification process and should show that due care
    was taken for security. The Directive specifies that reaccredidation should
    occur before a revised system is declared operational, or every 3 years
    regardless of revisions.




                                            6
     The managers of the applications that did not have a current C and A or IATO,
     an estimated 318 (30 expired and 288 with no C and A) of the 1,365
     applications, did not have documented evidence that they evaluated risk, planned
     mitigating procedures, and accepted risk, or that they exercised due care
     regarding information security.

Defining the Parameters for Information Security
     Another factor in establishing parameters, besides information technology that
     falls outside the conceptual framework of an application or a system, is the
     interface between applications and operating systems. Personnel for three Air
     Force applications and nine Navy applications disagreed on who was responsible
     for accreditation of applications. For example, the DISA Center personnel at
     Mechanicsburg consistently described their responsibility for security as one that
     ends at the interface point with a specific customer’s data processing
     application. Navy personnel at Mechanicsburg believed that, although they
     could certify an application, only the Center personnel could accredit a system
     because a system would include all hardware and software required to
     accomplish a process.

     However, the Navy position was not consistent with its documentation. The
     security certification documents, prepared by the organization that developed the
     applications, state that:
                “FMSO [Fleet Material Support Office] certifies that this Application
                has been examined for ADP [Automatic Data Processing] Security
                safeguards in accordance with OPNAVINST 5239.1A [Navy
                Operating Instruction] and is in compliance with proper ADP Security
                design conventions, necessary for User Activity Accreditation
                [emphasis added].”

     The user activity, according to the October 13, 1993, memorandum transmitting
     the above security statement, was the Navy Ships Parts Control Center. The
     Center at Mechanicsburg was not an addressee for the certification statement.
     The Air Force and the Navy personnel associated with the 12 applications
     believed that they fulfilled their responsibility for information security when
     application developers certified the security features designed into the
     applications.

     Other relationships among organizations can also add complexity to assigning
     responsibility for information security. In addition to the Center with its
     responsibility for the operating software and the hardware, an application could
     have other organizations providing and using data, developing the application,
     and providing the communications among the process parts. The applications
     and other items billed for by DISA do not always have the same user and payer,
     and the division of responsibility for security can be uncertain with multiple
     organizations involved. The Centers, Detachments, and DISA did not maintain
     records of customer security responsibility similar to records for customer
     paying responsibility.

                                             7
Providing Oversight on Policy Implementation and
  Applicability
    Although DoD Directive 5200.28 specifically assigns oversight and review of
    implementation of its stated policies to the ASD (C3I), the ASD (C3I) had no
    mechanism in place to provide that oversight. Additionally, the Directive
    assigns responsibility to DoD Component Heads, including DISA, for
    implementing and ensuring compliance with the Directive, and for programming
    funds and resources to support information security. The DoD Components also
    had no mechanisms to comprehensively measure compliance with the Directive.

    Mechanism to Evaluate Security Posture. In a February 9, 2001,
    memorandum to all the Components, the ASD (C3I) stated that the DoD had
    several vehicles in place to assess information assurance and meet the intent of
    GISRA. However, according to the memorandum, the DoD required a means
    of evaluating and consolidating information assurance data to report the DoD
    information security posture. With the February memorandum, the ASD (C3I)
    established an integrated process team to accomplish that goal.

    The integrated process team developed a matrix of features about which they
    would obtain responses from system managers. A sample of systems was
    randomly selected from the IT Registry, the DoD subset for testing policy
    effectiveness for the FY 2001 GISRA reporting period. The responses to the
    matrix of questions would provide a test of the implementation of IT security
    policy, and provide an opportunity to evaluate weaknesses in the overall DoD
    policy. The Office of the Inspector General, DoD, and the GAO provided
    earlier evaluations of the DoD information security policy during specific issue
    audits and reviews.

    Policy Status Based on Evaluations. The evaluations conducted by the Office
    of the Inspector General, DoD and the GAO have repeatedly recommended
    updating policies and procedures to provide consistent management and
    monitoring of information security and assurance throughout the DoD. The
    DoD received recommendations related to DoD Directive 5200.28 and DoD
    Instruction 5200.40 in May 1996 (2 recommendations), September 1996
    (1 recommendation), September 1997 (2 recommendations) and December 1999
    (2 recommendations) that were open as of July 2001.

    The overarching policy contained in DoD Directive 5200.28 no longer
    corresponded with other policy and directives because it predated them. For
    example, DoD Directive 5200.28 refers its users to DoD Directive 5010.38,
    “Internal Management Control Program,” for independent review procedures,
    but those procedures are found in DoD Instruction 5010.40, “Management
    Control (MC) Program Procedures,” August 28, 1996. Directive 5010.38 was
    reissued August 26, 1996, and the companion Instruction 5010.40 was issued
    August 28, 1996, resulting in a disconnect between the 1988 IT policy and other
    DoD policy and procedures.



                                        8
    Existing Information Security Policy. Oversight on implementation of the
    DoD information security policy should also identify the age and corresponding
    credibility of existing DoD Directive 5200.28 companion documents. The
    Directive refers its users to DoD 5200.28-Standard, “Department of Defense
    Trusted Computer System Evaluation Criteria,” December 1985, for guidance
    on risk assessments and associated level of trust. The Directive also refers its
    users to DoD 5200.28-M, “ADP Security Manual,” administratively reissued
    incorporating change 1 on May 24, 1979, for guidance on marking and
    disposition of media. The standard and the manual had not been updated for the
    IT environment that exists in the year 2001. That environment includes
    architectures of highly networked systems and media, such as writable compact
    disks.

    Instruction 5200.40 provides detail on what needs to be completed for a
    certification and accreditation package, but it does not provide enough detail on
    how to prepare the documentation required in a certification package. The
    detailed description about how to complete the documentation required for a
    certification package first became available July 31, 2000, when
    DoD 8510.1-M, “DoD Information Technology Security Certification and
    Accreditation Process, Application Manual,” was issued.

    Different Assessment Tools Used for Certifying and Accrediting. Different
    assessment tools were used to certify and accredit DoD information systems,
    which led to delays in implementing and enforcing the DITSCAP. For
    example, the Navy did not use the DITSCAP to certify and accredit its systems;
    it used Navy Instruction 5239.1A, “Department of the Navy Automatic Data
    Processing Security Program,” April 1, 1985. The Navy Instruction was to be
    updated and replaced by Navy Instruction 5239.1B, which was in draft as of
    June 2001. One of the major areas of concern to be addressed in Navy
    Instruction 5239.1B was the oversight of information assurance. According to
    Navy CIO personnel, the DITSCAP allows the Services to use Service-specific
    guidance to certify and accredit their information systems.

    The Air Force started using the DITSCAP, effective April 1, 2001, for
    certifying and accrediting its information systems. Before using the DITSCAP,
    the Air Force used Air Force System Security Instruction 5024, volume 1, “The
    Certification and Accreditation Process,” September 1, 1997. The Air Force
    Instruction has the same requirements as the DITSCAP. Owners of Air Force
    systems that were using the Air Force Instruction to certify their systems and
    applications were allowed to continue; however, future certification and
    accreditation will comply with the DITSCAP. We believe that moving to a
    common evaluation tool, the DITSCAP, will help to develop common
    terminology and parameters for information security and provide more uniform
    levels of policy implementation.

Conclusion
    Although DoD has guidance and policies on information technology security and
    information assurance, DoD Components, including DISA, had not thoroughly
    implemented and enforced them. Therefore, unclassified applications and other
                                        9
    information resources operating or residing on DISA Centers and Detachments
    were not certified and accredited in accordance with the current DoD IT
    guidance and policy. The absence of clearly defined responsibilities and
    boundaries and limited oversight to maintain contemporary guidance pose
    unidentified and unmanaged risks. Those risks include the potential for loss of
    service, data corruption, unauthorized access, sabotage, tampering, misuse and
    fraud involving DoD information technology systems. In addition, when
    decisionmakers do not identify the specific risks or the magnitude of risk they
    must manage, they cannot assign the personnel or the funds to manage the risk.

Management Comments on the Finding and Audit Response
    Office of the Secretary of Defense Comments. The Director, Information
    Assurance, Office of the Assistant Secretary of Defense (Command, Control,
    Communications, and Intelligence), stated that the draft report made no mention
    of DoD CIO Guidance and Policy Memorandum 6-8510, “DoD Global
    Information Grid (GIG) Information Assurance and Information Assurance
    Implementation Guide,” June 16, 2000, which is more contemporary guidance.
    The Director also stated that a draft DoD Directive 8500.1, “Information
    Assurance,” and a draft DoD Instruction 8500.2, “Information Assurance
    Implementation,” have been prepared to replace both DoD Directive 5200.28
    and Policy Memorandum 6-8510. The Directive and the Instruction should be
    in coordination by October 2001. The Director also stated that DoD
    Instruction 5200.40, known as DITSCAP, was being revised to better define the
    certification and accreditation process and to address issues discussed in this
    audit report. The new DITSCAP will be issued as DoD Instruction 8510.1 in
    early 2002. The Director indicated that the report oversimplified in attributing
    DoD information security deficiencies to a lack of definition for systems and
    applications and unclear guidance. In addition, the Director did not agree that
    DoD Directive 5200.28 applied to data sets and databases. He said that such an
    interpretation would require all “files” to be certified and accredited.

    Audit Response. The DoD CIO Global Information Grid guidance and policy
    memorandum issued June 16, 2000, may not be considered binding by DoD
    personnel. DoD Directive 5025.1, “DoD Directives System,” July 27, 2000,
    states that, for directive-type memorandum, “A DoD issuance will be issued
    within 180 days of signature of the memorandum,” and its predecessor guidance
    stated within 90 days. Also, DoD Directive 8500.1 and DoD Instruction 8500.2
    were to have been completed by May 2001. Although current and clear
    guidance does not guarantee that the guidance will be followed, it is a
    prerequisite for effective implementation and oversight, and provides further
    assurance that responsible personnel are certifying and accrediting their systems
    and applications consistently. In addition, we do not advocate the certification
    and accreditation of files; however, any item resident on a computer represents
    a vulnerability and should be identified with a system or application that has
    been certified and accredited. During our audit, data sets and databases could
    not be traced back to applications that had been certified and accredited.

    DISA Comments. DISA agreed that more vigilance is needed to ensure a
    secure information technology environment. DISA stated that it had taken a
                                       10
    number of proactive steps to ensure that its support to the Services and Defense
    agencies and, ultimately, the warfighter meet this requirement. DISA stated that
    information security is a shared responsibility and that DISA partners with its
    customers and vendors to accomplish the requirements of GISRA.

Recommendations, Management Comments and Audit
  Response
    1. We recommend that the Assistant Secretary of Defense (Command,
    Control, Communications, and Intelligence):

           a. Define systems, applications, networks, and other terminology so
    boundaries and interfaces can be clearly established and comprehensive
    information security responsibility can be assigned. The definitions should
    also provide guidance on the applicability of information security to
    information technology items, such as data sets, databases, and software
    management tools.

           b. Use the data collection effort designed in response to the
    reporting requirements of the Government Information Security Reform
    Act to identify information security policy and programs that are omitted,
    obsolete, or confusing, and expeditiously modify or update the policy and
    programs as needed.

    Management Comments. The Assistant Secretary of Defense (Command,
    Control, Communications, and Intelligence) [ASD(C3I)] did not specifically
    respond to the recommendations. Therefore, we request that the ASD(C3I)
    provide comments to recommendations in response to the final report.

    2. We recommend that the Chief Information Officers for the Army, Navy,
    Air Force, the Defense Finance and Accounting Service, and the Defense
    Logistics Agency:

            a. Use the data collected in response to the Government Information
    Security Reform Act to identify weaknesses, such as expired accreditations,
    in their Component information security programs so they can provide
    resources to improve the programs.

          b. Coordinate information security efforts for applications and other
    information technology with service providers, such as the Defense
    Information Systems Agency, to include clearly designated security and
    approval officials.

   Army Comments. The Army concurred with Recommendations 2.a. and 2.b.
   The Army is implementing the DITSCAP as the standard for all its information
   systems. The Army’s information assurance professionals at all levels are
   involved in the DITSCAP process, not only for applications that run on Defense
   Enterprise Computing Centers, but also for all information systems. The Army
   recommended to the Government Information Security Reform working group

                                       11
that DoD make the development of better definitions a high priority requirement
and that revisions to the DITSCAP application manual specifically address
certification and accreditation requirements for applications and other entities.
The Army suggested that DoD consider registering Defense Enterprise
Computing Centers’ applications in the IT registry database. In August 2001, the
Army directed that responsible personnel for all systems and applications
currently in the IT registry review and update all required identifying data. In
addition, the Army will recommend to the ASD(C3I) that additional information
security data fields be added to the IT registry database.

Audit Response. The Army’s suggestion for registering DECC applications on
the IT registry has merit. Office of Inspector General, DoD, Report No. D-
2001-175, August 22, 2001, discusses more wide-ranging use of the IT registry
database.
Navy Comments. The Navy did not comment on a draft of this report.
Therefore, we request that the Chief Information Officer for the Navy provide
comments to the final report.

Air Force Comments. The Air Force concurred with Recommendations 2.a.
and 2.b. The Air Force will incorporate Government Information Security
Reform data fields into the Air Force System Compliance Database, which will
track Air Force systems for certification and accreditation and GISRA
requirements. The Air Force has collected similar data, in support of GISRA,
which yielded similar findings. The acting CIO for the Air Force made
information security a priority by putting together a tiger team of Air Force
experts to construct and guide the Air Force’s implementation of an information
assurance strategy. The Air Force strategy will be a collaborative effort with
external agencies, including DISA and the Office of the Secretary of Defense.

Defense Logistics Agency Comments. The Defense Logistics Agency
concurred with Recommendations 2.a. and 2.b. The Defense Logistics Agency
stated that it would include weaknesses identified in response to GISRA in its
Annual Statement of Assurance. It also stated that those weaknesses were
included in its Information Assurance Program Plan and System Security
Authorization Agreements for systems, networks, and websites. Furthermore,
the Defense Logistics Agency planned or implemented schedules to mitigate
those security weaknesses. It developed System Security Authorization
Agreements in accordance with DoD Instruction 5200.40 for all five of the
systems selected for review in this audit. One system was certified, accredited,
and issued approval to operate on July 29, 2001; two are currently being
certified with approval to operate planned for September 2001; and the
remaining two should achieve approval to operate in November 2001. In
addition, the Defense Logistics Agency information security efforts have been
coordinated as part of service level agreements and memoranda of agreement.

Defense Finance and Accounting Service Comments. We received comments
from the Defense Finance and Accounting Service too late to be included in the
final report. However, management concurred with the recommendations. The


                                    12
draft report comments will be treated as the comments to the final report unless
the Defense Finance and Accounting Service wants to provide additional
comments on the final report.

3. We recommend that the Commander, Defense Information Systems
Agency, Western Hemisphere:

        a. Coordinate information security efforts with customers to obtain
their statements of approval to operate when beginning service
arrangements and periodically thereafter.

       b. Maintain a resource listing of officials responsible for information
security for each customer of the Defense Enterprise Computing Centers
and Detachments. Those officials should be contacted if their application is
the source of security risks or affected by other customer or Defense
Enterprise Computing Centers risks.

       c. Establish a monitoring process and performance goal for Defense
Enterprise Computing Centers to document current certifications and
accreditations, interim authority to operate, and the designated approval
authority and information systems security officer for all customers by the
end of the FY 2002 Government Information Security Reform reporting
period.

Management Comments. DISA concurred with Recommendation 3.a. DISA
specifies in each service level agreement that the customer is responsible for the
system or application certification and accreditation. In the future, the customer
will be asked to document that the systems or applications are certified and
accredited, or the steps taken to accomplish certification and accreditation, along
with a schedule for completion. The customer will also be asked to identify the
risks that the customer assumed to implement the work prior to completing the
certification and accreditation process. That guidance will be transmitted to
DISA Headquarters and field activities through a policy letter by October 1,
2001.

DISA concurred with Recommendation 3.b. DISA stated that all operational
sites currently maintain the names and contact information for functional points
of contact for all applications that run on systems at the Defense Enterprise
Computing Centers and Detachments. The points of contact interface between
the customers, the Defense Enterprise Computing Center, and the Detachments
to address operational problems. If a security-related issue occurs, site
personnel of DISA Western Hemisphere coordinate through the customer’s
functional point of contacts to resolve the problem with the customer’s
functional and security personnel.

DISA nonconcurred with Recommendation 3.c. DISA stated that the Office of
the Secretary of Defense is responsible for this policy issue because the Office
of the Secretary of Defense is in the position to require the Services and DoD
agencies to update and maintain their portion of the information security
records. DISA supports having a central repository for DAA information for

                                    13
applications and major systems. DISA recommends that either a central
repository be developed or that the IT registry be expanded to maintain the data
at the Office of the Secretary of Defense level.

Audit Response. Although DISA concurred with Recommendation 3.b., the
audit found gaps in the process described. The audit identified the Defense
Enterprise Computing Center points of contact. However, as stated in this
report, for 27 of the sample applications, DISA customer points of contact were
unable to identify the application’s DAA and ISSO or provide information about
certification and accreditation. Further, for 15 applications, the customer points
of contact did not recognize the applications for which DISA was billing them as
one supporting their organization or functions. The DISA actions on
Recommendation 3.a. should result in identifying customer points of contact that
are aware of and maintain the appropriate information security data.
With respect to Recommendation 3.c., we agree that the Office of the Secretary
of Defense has a principal role in issuing the policy to require the Services and
Defense agencies to provide the information. However, as DISA acknowledges
in its response, information security is a shared responsibility and DISA must
partner with various parties to ensure that the requirements of information
security are met. In our opinion, DISA has an essential role to monitor
information collection on current certifications and accreditations, the interim
authority to operate, and the designated approval authority and information
systems security officer for all customers. In response to the final report, we
request that DISA reconsider its position on establishing a monitoring process.




                                    14
Appendix A. Audit Process

Scope
    Work Performed. In February 2001, we selected a subset of applications, as
    required by the GISRA. Our subset of systems was independent from the
    sample that DoD selected in April from the IT Registry database. We selected
    our sample from items residing on and billed by Centers and Detachments, a
    listing obtained in response to our request for applications operating at Centers
    and Detachments. Operations research analysts aggregated the population of
    4,939 billable line items to 1,365 items based on unique names. The operations
    research analysts then selected a simple random sample of 90 applications. Of
    the 90 sample items from the Center population, 31 also occurred in the IT
    Registry population.

    We interviewed personnel and reviewed information security documentation
    from DISA Centers and Detachments, as well as the Navy, Marine Corps,
    Army, Air Force, Defense Finance and Accounting Service, and Defense
    Logistics Agency.

    We analyzed DoD Directives, Instructions, and other guidance to determine
    whether information assurance and security policies and procedures were clear,
    comprehensive, and consistent with Federal policy and one another. We
    compared certification and accreditation documentation to DoD and Component
    guidance for determining compliance. See Methodology for details of the
    sample selected from the Center and Detachment population of applications.

    Limitations to Scope. We did not review the management control program
    because DoD recognized information security and assurance programs as a
    material weakness in its FY 1999 Statement of Assurance, which was its most
    recent signed Statement of Assurance.

    DoD-Wide Corporate Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following corporate level goal and performance measure.

        •   FY 2001 DoD Corporate Level Goal 2: Prepare now for an uncertain
            future by pursuing a focused modernization effort that maintains U.S.
            qualitative superiority in key warfighting capabilities. Transform the
            force by exploiting the Revolution in Military Affairs, and reengineer the
            Department to achieve a 21st century infrastructure. (01-DoD-02)

        •   FY 2001 Performance Measure 2.5.3: Qualitative Assessment of
            Reforming Information Technology (IT) Management. (01-DoD-2.5.1.).


                                        15
    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objective and
    goal.

           Information Management Functional Area. Objective: Ensure
           DoD’s vital information resources are secure and protected.
           Goal: Make Information Assurance (IA) an integral part of DoD
           Mission Readiness Criteria. (IM-4.1)

    GAO High-Risk Area. The GAO lists information assurance as a high-risk
    area. Although the Secretary of Defense annually establishes DoD-wide
    corporate level goals and performance measures to address the requirements of
    the Government Performance and Results Act, the DoD does not currently
    provide corporate level goals for information assurance.

Methodology
    To assess the information technology security posture of DoD, we selected a
    random sample of applications from a subset of systems. For those
    applications, the objective was to identify security personnel, such as the ISSO
    and the DAA, and to determine whether the applications had a C and A or an
    IATO. We constructed a spreadsheet in which to compile and analyze results
    from our subset of systems.

    Use of Computer-Processed Data. Computer-generated information was the
    source for selecting the subset, but was not used as evidence in a finding.

    Universe and Sample. We defined applications operating or residing on the
    DISA Centers and Detachments as our subset of systems, the universe for this
    sample. In response to our request for DISA supported-applications, DISA
    Western Hemisphere provided a listing of 4,939 applications on Center and
    Detachment systems that were billed to customers. Analysis of the
    4,939 applications determined that multiple occurrences of the same names
    appeared. Operations research analysts from the Quantitative Methods
    Division, Office of the Assistant Inspector General for Auditing, aggregated the
    list based on unique-named applications, which left 1,365 applications. The
    analysts then generated a simple random sample of 90 applications.

             Measurement Issues. The listing of applications that DISA Western
    Hemisphere provided consisted of every line item billed by DISA. Some items
    were not, in fact, applications, but space on the network that customers must
    pay to use. Inactive or unacknowledged applications were also found, so the
    sample items could not be tested for the attributes demonstrating security policy




                                        16
implementation. See Appendix C for details of the 90 sample applications. The
sample results categories and the number of applications in each category are
shown below:

                           Table A1. Sample Results by Certification and
                              Accreditation Status Category

                    Category                                                 Sample Result

Current C and A or IATO                                                           33
Out of Date C and A or IATO                                                        2
No C and A and no IATO, or incomplete                                             19
Other IT                                                                           9
Unable to test the C and A and IATO status                                        27
 Total                                                                            90

         Measurement Results. The operations research analysts projected
these sample results to the subset universe of 1,365 applications using a
90 percent confidence level. The results shown in the report are the point
estimates projected. The complete results of the projections are shown below:

                    Table A2. Certification and Accreditation Status
                      Projected to the Population of Applications

                                             Lower                  Point1              Upper
                  Category                   Bound                 Estimate             Bound

Current C and A or IATO                        383                    501                    618
Out of date C and A or IATO                     --2                    30                     72
No C and A and no IATO, or
incomplete (certification only)                187                    288                    389
Other IT                                        60                    137                    213
Unable to test the C and A and
IATO status                                    297                    410                    522

1
    The point estimate does not add up to the population due to rounding.
2
    The lower bound estimate is below zero, therefore, it is not reported.


Use of Audit Assistance. The Air Force Audit Agency and the Army Audit
Agency gathered and analyzed data for those sample items that belonged to
customers within their respective Component. The Air Force Audit Agency
gathered and analyzed data for 19 sample items, and the Army Audit Agency
gathered and analyzed data for 34 sample items. The data were merged into a
common spreadsheet for interpretation of the overall sample results.


                                              17
Use of Technical Assistance. One computer engineer from the Technical
Assessment Division, Office of the Assistant Inspector General for Auditing,
assisted in planning the audit. In addition, two operations research analysts
from the Quantitative Methods Division, Office of the Assistant Inspector
General for Auditing, assisted in selecting the random sample from the subset of
applications and interpreting the results.

Audit Type, Dates, and Standards. We conducted this program audit from
January through July 2001, in accordance with generally accepted Government
auditing standards, except that we did not have time to independently retest or
validate the audit work of the Army Audit Agency and the Air Force Audit
Agency. In addition, we were unable to obtain an opinion on our system of
quality control. Our most recent external quality control review was withdrawn
on March 15, 2001, and we will undergo a new review.
Contacts During the Audit. We visited or contacted individuals and
organizations within the DoD. Further details are available upon request.




                                   18
Appendix B. Prior Coverage

GAO
      GAO Report No. GAO-01-525, “Information Technology: Architecture Needed
      to Guide Modernization of DoD’s Financial Operations,” May 17, 2001

      GAO Report No. GAO-01-307, “Information Security: Progress and Challenges
      to an Effective Defense-wide Information Assurance Program,” March 30, 2001

      GAO Report No. GAO-01-341, “Information Security: Challenges to Improving
      DoD’s Incident Response Capabilities,” March 29, 2001


Inspector General, DoD
      Inspector General, DoD, Report No. D-2001-044, “Accreditation Policies and
      Information Technology Controls at the Defense Enterprise Computing Center
      Mechanicsburg,” February 9, 2001

      Inspector General, DoD, Report No. D-2001-017, “Unclassified but Sensitive
      Internet Protocol Router Network Security Policy,” December 12, 2000

      Inspector General, DoD, Report No. D-2001-016, “Security Controls Over
      Contractor Support For Year 2000 Renovation,” December 12, 2000

      Inspector General, DoD, Report No. D-2000-124, “Information Assurance
      Challenges – A Summary of Audit Results Reported December 1, 1998,
      Through March 31, 2000,” May 15, 2000

      Inspector General, DoD, Report No. 99-069, “Summary of Audit Results –
      DoD Information Assurance Challenges,” January 22, 1999




                                       19
Appendix C. Sample Application Results
   From the randomly selected sample of 90 applications operating or residing on
   DISA Centers and Detachments, the points of contact for 54 applications
   acknowledged the applications. For those 54 applications, the status was as
   follows:

      •   6 had current C and As,

      •   27 had current IATOs,

      •   1 had an expired C and A,

      •   1 had an expired IATO,

      •   12 had certifications and no accreditation (grouped with no C and A in
          finding),

      •   7 did not have a C&A, an IATO, or a certification without an
          accreditation.

   For the 54 applications discussed above, managers for 52 had assigned a DAA
   and for 51 had assigned an ISSO. A summary of the results appears in the table
   on the following pages.

   The table also lists the items that did not meet the criteria for applications and
   the reason the items did not fit. From the randomly selected sample of 90, the
   using or bill paying customer identified 9 sample items as other information
   technology residing on Center systems. The DISA customer points of contact
   for 15 sample items did not recognize the application name as one supporting
   their functions or as a segment of a larger application supporting their functions.
   Therefore, the status of those items for security officials and security procedures
   was undetermined. Also, the status of applications for C and A or IATO could
   not be established as follows: 6 retired, 3 classified, 2 unfielded (in
   development), and 1 transferred to a non-DISA service provider. A summary
   of the results appears in the table on the following pages.




                                       20
21
22
23
24
25
ACALA     U.S. Army Armament and Chemical Acquisition and
                Logistics Agency
AFMC      Air Force Materiel Command
CECOM     Communications Electronics Command (Army)
Cert.     Certification
CSC-StL   Computer Science Corporation – St. Louis
DE        Denver
DFAS      Defense Finance and Accounting Service
DLA       Defense Logistics Agency
FMSO      Fleet Materiel Supply Office
HROC      Human Resource Operations Center
HQ        Headquarters
AF/IL     Headquarters Air Force, Deputy Chief of Staff for
                Installations and Logistics
ILSP      Integrated Logistics Support Program
ITS       Integrated Technology Security
J-64      DLA Enterprise Business Systems, Directorate J-64
KC        Kansas City
LOGSA     Logistics Support Activity (U.S. Army Materiel Command)
LSSO      Logistics Systems Support Office
LG        Defense Communications Systems/Logistics
MCLBASE   Marine Corps Logistics Base
MSG       Materiel Systems Group (Air Force)
NAVICP    Naval Inventory Control Point
OPLOC     Operating Location
OSC       U.S. Army Operations Support Command




                        26
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
  Deputy Assistant Secretary of Defense (Deputy Chief Information Officer)
  Director, Defense-Wide Information Assurance Program

Department of the Army
Chief Information Officer, Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Commandant, Marine Corps
Naval Inspector General
Auditor General, Department of the Navy
Navy Chief Information Officer

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Chief Information Officer, Department of the Air Force

Other Defense Organizations
Inspector General, Defense Intelligence Agency
Director, Defense Logistics Agency
Director, Defense Finance and Accounting Service
   Chief Information Officer
Inspector General, Defense Information Systems Agency




                                         27
Non-Defense Federal Organization
Office of Management and Budget
General Accounting Office

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         28
Assistant Secretary of Defense (Command,
Control, Communications, and
Intelligence) Comments




                      29
30
Department of the Army Comments




                    31
32
Department of the Air Force Comments




                     33
34
Defense Information Systems Agency
Comments




                      35
36
37
38
Defense Logistics Agency Comments




                      39
40
41
Audit Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Mary L. Ugone
Robert K. West
Judith I. Padgett
Walter L. Jackson
Bryon J. Farber
Heather L. Jordan
Setranique T. Clawson
Mandy L. Rush
Richard O. Williams
Henry D. Barton
Dharam V. Jain
Ann Ferrante
Jacqueline N. Pugh
